 Former Head of SEC Fort Worth Enforcement Program Agrees to
  Settlement with Department of Justice for Violation of Federal
                   Conflicts of Interest Statute

FOR IMMEDIATE RELEASE

        January 13, 2012 - The United States Attorney for the Eastern District of Texas
today announced a civil settlement reached with Spencer Barasch, the former Securities
and Exchange Commission (SEC) official in charge of the Enforcement program at the
SEC‟s Fort Worth Office from 1998 through 2005. The agreement alleges that Barasch
violated 18 U.S.C. § 207, the federal statute prohibiting a former government official
from making a communication or appearance before a federal agency concerning a
particular matter in which the official participated personally and substantially while
serving the government. As part of this agreement, Barasch will pay a $50,000 civil fine,
the maximum fine for a violation of this statute.

       “Today‟s action sends a strong message that former federal officials cannot abuse
the public trust by attempting to profit personally from matters on which they worked as
government servants before joining the private sector,” said H. David Kotz, SEC
Inspector General. “This misconduct highlights the dangers of a „revolving door‟
environment between the SEC and the private securities law bar.”

        The settlement with Barasch stemmed from and is premised on facts uncovered
during an investigation conducted by the SEC‟s Office of Inspector General (OIG) into
the SEC‟s failure to bring an enforcement action against Robert Allen Stanford or his
companies (Stanford) for several years after receipt of numerous complaints that Stanford
was operating a Ponzi scheme. In its report of investigation issued on March 31, 2010,
the OIG uncovered evidence that Barasch, who played a significant role in multiple
decisions over a span of several years that quashed investigations of Stanford,
nonetheless sought to represent Stanford on three separate occasions after he left the SEC
to enter private practice. In fact, the evidence obtained by the OIG showed that Barasch
actually represented Stanford for a brief period of time in 2006 and communicated with
an SEC attorney about the matter before he was informed by the SEC Ethics Office that it
was improper for him to represent Stanford. Subsequent to the issuance of its report of
investigation, the OIG provided its full cooperation to the Department of Justice in
support of the efforts that resulted in this settlement.


For more information, contact:

H. David Kotz
Inspector General, Securities and Exchange Commission
(202) 551-6061
